OIG Investigative Reports, Toman Daniel Ramirez Pleads Guilty in U.S. Federal Court
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
Date: June 04, 2007
WILLIAM W. MERCER
United States Attorney
P.O. 1478
Billings, Montana, 59103
Contact: Kurt Alme
&nbsp First Assistant U.S. Attornney
Telephone: (406) 247-4669
Website: http://www.usdoj.gov/usao/mt/
Tomas Daniel Ramirez Pleads Guilty in U.S. Federal Court
Bill Mercer, United States Attorney for the District of Montana, announced today that during a federal court
session in Missoula on June 1, 2007, before U.S. Magistrate Judge Jeremiah C. Lynch, TOMAS DANIEL RAMIREZ, a
33-year-old resident of Polson, pled guilty to re-entry of a deported alien, federal education assistance fraud,
aggravated identity theft, and perjury.  Sentencing is set for October 11, 2007.  He is currently detained.
In an Offer of Proof filed by the United States, the government stated it would have proved at trial the
following:
On August 27, 1987, RAMIREZ, using a birth date of 1963, in the Superior Court of the State of California, Napa
County, was convicted of burglary and grand theft.
On November 7, 1987, RAMIREZ, an alien and citizen of El Salvador, was deported from the United States to Mexico
through the Port of Calexico, California.
On May 6, 1989, RAMIREZ, using the name Dennis Golcoechea Gonzales, and a date of birth of 1964, was arrested in
Portland, Oregon, for possession of a controlled substance.
Between 1989 and 1994, RAMIREZ was arrested on numerous occasions using the name Dennis Golcoechea Gonzales.  On May
31, 1995,  RAMIREZ, using the name Dennis G. Gonzales, was convicted in Washington County, Oregon, of second degree
theft.
In January of 2000, RAMIREZ, using the name Dennis G. Gonzales, obtained a General Education Development certificate
from the Oregon State Board of Education.
In May of 2002, RAMIREZ attempted to have the GED certificate in the name of Dennis G. Gonzalez changed to Pedro
Rivera de Jesus.
During the academic year 2002-03, RAMIREZ attended Portland Community College, Portland, Oregon, using the name
Pedro Rivera.
Food Stamp Fraud
On March 1, 2004, RAMIREZ, aka Pedro A. Rivera and his common-law wife, went to the Office of Public Assistance in
Polson and applied separately for food stamps.  RAMIREZ applied using the name Pedro Rivera and a date of birth of
1973 and SSN: ***-**-8945.
RAMIREZ falsely completed the Application for Assistance for Food Stamps, Temporary Assistance for Needy Families
and Medicaid using the name of Pedro A. Rivera with a date of birth 1973 and SSN: ***-**-8945.
An Office of Public Assistance employee received the "Rivera" application and noted that "Rivera" had claimed that
he had not received food stamps, indicated "None" and "0" for any income and claimed that he was not attending
school.  The employee contacted an Oregon public assistance office and discovered Rivera's case was still open and
that he had received food stamps from Oregon, distributed that same day, and had received unemployment compensation
from the State of Oregon.  RAMIREZ, as Rivera, also stated he was going to return to Oregon soon to get some
paperwork done for school.
Another Office of Public Assistance employee reviewed RAMIREZ'S common-law wife's application and contacted Oregon
to verify that food stamps were not being received.  The Oregon office verified that they had indeed been
distributed.  The Office of Public Assistance sent out a denial letter March 2, 2004, for March food stamps.
On March 10, 2006, RAMIREZ and his wife went to talk to their case workers.  "Rivera" and the woman told the case
workers they had a common law marriage and had been together for several years and planned to get married soon.
Based on the common law/marriage relationship, one or both of the Office of Public Assistance employees informed
"Rivera" and the woman that they needed to apply for food stamps under one name.  "Rivera" said to use the woman's
application.  Based on the fact that both "Rivera" and the woman had made false statements regarding their existing
food stamp and unemployment benefits, they were denied benefits in Montana for 12 months, from May 1, 2004, to April
30, 2005.  "Rivera" wrote a withdrawal statement on his application.
However, on August 19, 2004, the common-law wife again attempted to apply for food stamps.  In this application, she
listed her common-law husband as Dennis Gonzalez, with no SSN or DOB.  She was scheduled for an interview on August
18, 2004, with the expectation that she would bring in Gonzalez's SSN number and DOB necessary to complete the
application.  She failed to show for the interview.
The two did not seek to re-apply for benefits again until July 18, 2005, when she and RAMIREZ, using the name Pedro
Rivera, reported for a scheduled interview.  They both indicated they were full time students at the Kootenai
College in 2004.  However, "Rivera" had lost his funding when he went to jail for a period of time.
On July 19, 2005, the woman and RAMIREZ began receiving benefits. Benefits continued through June 6, 2006, for
approximately $278.00 per month.  During the month of January and February of 2006, she was denied the Food Stamps
benefit due to her college enrollment.  However, RAMIREZ received the Food Stamps as a household member in the
amount of $152.00 per each month.
RAMIREZ'S common-law wife died on April 1, 2006, in a car accident near Pablo.  On April 17, 2006, RAMIREZ, still
posing as Pedro Rivera, called the Office of Public Assistance to report the death of his wife.
On June 1, 2006, "Rivera" was informed by the Office of Public Assistance that he needed to apply for food stamp
benefits on his own behalf.
On July 6, 2006, RAMIREZ, using the name Pedro Rivera, reapplied for Food Stamps using date of birth 1973 and SSN
***-**-8945.  On July 17, 2006, "Rivera" began receiving benefits and was issued an Electronic Benefit Transfer card
(EBT), which by then had replaced the Food Stamp coupons, with his own pin number.  He continued to receive Food
Stamp benefits under the name and identifiers of Pedro Rivera through the date of the indictment.  The overpayment,
due to the fraudulent misrepresentations, was $2,783.
Federal Student Aid Fraud
On October 27, 2004, RAMIREZ applied for Montana Vocational Rehabilitation benefits using the name of Pedro Rivera.
In December of 2004, RAMIREZ, using the name Pedro Rivera De Jesus, enrolled at Salish Kootenai College and on
December 26, 2004, applied for federal educational benefits, in the form of student assistance, in that alias name,
using the date of birth of 1973 and SSN: ***-**-8945.
On December 26,2004, RAMIREZ, using the name Pedro Rivera, completed a Free Application for Federal Student Aid
resulting in approximately $7,350 in federal student loans and Pell grants to be disbursed to him to attend college
at the Salish Kootenai College during the 2005-2006 school year.  In addition, RAMIREZ applied for and received
approximately $3,930 in Montana Vocational Rehabilitation student aid.
In Rivera's Salish Kootenai College file were copies of a Social Security card, Puerto Rico birth certificate, an
Oregon Identification card, and an Oregon General Education Development certificate, or GED, all bearing the name
Pedro Rivera.  Investigation determined that the GED was issued in 2000 from the Oregon State Board of Education in
Salem, Oregon.  Investigators sent a copy of Salish Kootenai College student Rivera's GED to the Oregon State GED
Administrator who stated the certificate number represented one issued to Dennis G. Gonzales, not Pedro Rivera.
In 2005, a Financial Aid Officer at Caribbean University in Puerto Rico was attempting to assist a student, Pedro
Rivera, complete and submit an application for student aid for the 2005-2006 academic year.  Upon processing the
application, the financial aid officer discovered that Rivera was already receiving student aid through the Salish
Kootenai College in Pablo, Montana.
The Financial Aid Officer then contacted the Financial Aid Director at Salish Kootenai College, informing her that
Pedro Rivera appeared to have obtained federal Pell grants to attend both Caribbean University and Salish Kootenai
College during the same school year.  The Financial Aid Director of Salish Kootenai College subsequently called the
student she knew as Pedro Rivera into her office to inquire about the Pell grant issue.
Salish Kootenai College student Rivera told the Financial Aid Director that a man living in Puerto Rico had stolen
his identity the year before, and used it to obtain financial aid at colleges in Puerto Rico.  After re-contacting
the Financial Aid Officer at Caribbean University, the Financial Aid Director of Salish Kootenai College learned the
Carribean University student Rivera reported similar allegations of identity theft by a man in Montana.
In January 2006, the Financial Aid Director of Salish Kootenai College reported the alleged identity theft to the
U.S. Department of Education, Office of Inspector General, which resulted in an eight month long investigation of
the identity theft claims by both individuals.
Investigation into Gonzales' and Salish Kootenai College student Rivera's backgrounds revealed identical addresses
in Oregon and Montana from 1996 to the present.  The Lake County Sheriff's Office in Polson advised that Salish
Kootenai College student Rivera, aka Dennis Gonzales, had been arrested on several occasions for misdemeanor
violations, but had recently been released because his wife had died in a car accident.  Paperwork in Rivera's
Salish Kootenai College file, compared to that in Logan's file, indicated he and Logan resided together in both
Oregon and Montana over the past ten years.
Additional booking information and photos of Gonzales from the Lake County Sheriff's office were researched in
addition to copies of fingerprint cards from the Montana Criminal Records Division in Helena. One print card stated
Rivera as an alias, but all cards were signed Dennis G. Gonzales.  The signatures on the Gonzales booking cards are
clearly similar to the Pedro Rivera signature on the Social Security card from Salish Kootenai College and the 2004
Free Application for Federal Student Aid.
The Financial Aid Director of Salish Kootenai College identified Gonzales' photo to be that of the individual she
knew as Rivera, who had attended Salish Kootenai College.
U.S. Department of Education, Office of Inspector General Special Agents interviewed Carribean University student
Pedro Rivera in Puerto Rico in May 2006.  Carribean University student Rivera told the agents he thought something
was wrong with his Social Security number back in 1993 when he applied for a personal loan and an unknown account
appeared in his credit report.  At the time, Rivera did not give it much thought until he applied for a federal Pell
grant in 2005 and found out someone else was using his identity.  Rivera claimed an individual from Montana called
him in January 2006, accusing him of identity theft.
Carribean University student Rivera provided agents with copies of various documents including a Social Security
card, Puerto Rico birth certificate, High School diploma, Baptism Certificate, Driver's License, and U.S. Passport.
In addition, Rivera told agents he had lived in Florida in 2000-2001, but never Oregon or Montana.  Rivera said he
had never lost any identification documents, and the Social Security statement he receives each year only revealed
contributions from his jobs in Puerto Rico.  Rivera did, however, provide agents with a copy of his most recent
credit report, which revealed several unfamiliar accounts.
Social Security numbers that Gonzales had provided to law enforcement officials over the years were checked in the
Social Security Administration database, revealing invalid numbers and numbers belonging to other individuals.
Copies of Gonzales' Oregon Driver's License photos were compared to those taken at the Lake County Sheriff's Office,
revealing the same individual in all photos.
Course of Federal Prosecution and Search
On September 18, 2006, RAMIREZ was indicted for educational program fraud and aggravated identity theft under the
name Dennis G. Gonzales.  He appeared before the U.S. District Court in Missoula and advised U.S. Magistrate Judge
Jeremiah Lynch that his true name was Pedro Rivera de Jesus.  The indictment was later superseded, still under the
name Dennis G. Gonzales, to add the food stamp fraud allegations that were not developed until after the first
indictment was handed down by the grand jury.
In January 2007, a comparison of fingerprints taken from TOMAS DANIEL RAMIREZ at the time of his 1987 arrest and
deportation, from the man calling himself Dennis Golcoechea Gonzales, and Dennis G. Gonzales, in arrests between
1989 and 1995, and the man arrested using the Pedro Rivera De Jesus, indicated that Gonzales and Rivera are only
alias names of RAMIREZ, who assumed those identities presumably to avoid deportation.  RAMIREZ may have taken the
name Rivera as an attempt to discard the name Gonzales under which he had acquired a significant criminal
record.
After his deportation in 1987, neither the Attorney General of the United States or the Secretary of Homeland
Security have any record of an application being filed for RAMIREZ for permission to lawfully re-enter the United
States.
On January 24, 2007, a witness came forward to the Lake County Sheriff's Office and advised that she had known the
man using the name Pedro Rivera, and his now deceased wife, Esther, for several years.  She knew the man as Pedro,
but he was commonly called "Danny."  She advised that she had confronted "Danny" who confirmed that he was neither
Dennis nor Pedro.  RAMIREZ told the woman that he would retain the documents relating to Pedro Rivera so that he
could "return to work" as Pedro Rivera upon this release from prison.  He advised that he had no identification
documentation for the Dennis Gonzales identity.  He advised that his true birth certificate was in a manila envelope
in a big black suitcase, and that in the event that "anything should happen," the birth certificate should be send
to his mother.
On January 25, 2007, a federal search warrant was executed on a residence in Polson where the real birth certificate
was believed to be located.  A black suitcase was discovered in a room occupied by RAMIREZ.  Inside the suitcase was
a manila folder with an original birth certificate indicating that TOMAS DANIEL RAMIREZ was born in El Salvador.
RAMIREZ faces possible penalties of 20 years in prison, a $250,000 fine and 3 years supervised release.  In
addition, RAMIREZ faces an additional mandatory two year imprisonment, consecutive to any other sentence, for
aggravated identity theft.
Assistant U.S. Attorney Carl E. Rostad prosecuted the case for the United States.
The investigation was a cooperative effort between the Office of the Inspector General for the Department of
Education and the Office of the Inspector General for the Department of Agriculture.
# # # #
A copy of the Offer of Proof can be obtained by contacting Sally Frank at (406) 247-4638.
Top
Printable view
Share this page
Last Modified: 06/05/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov